                                                        U.S. Department of Justice

                                                        United States Attorney
                                                        Eastern District of California



McGregor W. ScoN                                        501 IStreet, Suite 10-100                   9 161'554-2700
United States Attorney                                  Sacramento, Cal~yornia95814             Fax 91 6/554-2900




FOR IMMEDIATE RELEASE                                   Contact: Patty Pontello. 916-554-2706
March 22,2005                                          Available at: www.usdoj.gov/usao/cadhome


                 SHASTA COUNTY AUTO TRANSPORT BROKER CONVICTED

          SACRAMENTO--United States Attorney McGregor W. Scott announced today that

BILLY D. SOUTHERLAND, 63, of Anderson, California, was convicted today of two felony

counts of mail fraud and one felony count of wire fraud. The guilty verdict was returned by a

federal court jury in Sacramento after a three week trial before United States District Judge

Garland E. Burrell, Jr.

         This case is the result of a extensive joint investigation by the Office of Inspector General

of the United States Department of Transportation and the Shasta County District Attorney's

office, Bureau of Investigation.

         According to Assistant United States Attorney Matthew Stegman, who prosecuted the

case, the evidence at trial showed that from at least March of 2002, through January of 2004,

SOUTHERLAND advertised his auto moving business Southerland Auto on the Internet, using

website names such as MovingMyCar.com and many others, to people who needed to have their

cars transported from one city to another. Customers would send money to the defendant

believing that their vehicles would be picked up for a specified price within 7 to 10 days.

SOUTHERLAND would fail to perform within the stated days, and would engage in "bait and

switch" tactics, by offering below market prices to lure potential customers to his business. After
customers complained that their cars had not been moved, SOUTHERLAND and his employees

would tell the customers to pay more money to "upgrade" for express pickup priority service.

        When customers attempted to cancel with SOUTHERLAND, he would refuse to refund

some or all of the customer's money, claiming it to be a "non-refundable deposit."

        SOUTHERLAND also engaged in tactics designed to prevent dissatisfied customers fi-om

complaining to the Better Business Bureau by threatening to charge an additional $200 above the

"non-refundable $200 deposit" to customers who filed complaints with the Better Business

Bureau.

        "The Office of Inspector General is committed to working with the Federal Motor Carrier

Safety Administration, the regulators of the industry, and state and federal law enforcement

agencies to attack cases involving egregious and intentional patterns of defrauding consumers,"

said Hank Smedley, Special Agent in Charge of the DOT-OIG's regional office in San Francisco.

       "We are pleased by the conviction of Mr. Southerland. T h s office is committed to

prosecuting to the fullest, individuals who use deceitfbl tactics to defraud innocent consumers,"

stated United States Attorney Scott.

       The defendant is scheduled to be sentenced on June 10,2005, at 9:OO.

                                              ###
